                                     National Science Foundation
                                         4201 Wilson Boulevard
                                       Arlington, Virginia 22230

Office of Inspector General



MEMORANDUM

DATE:                SEP 1 9 2006
TO:               David A. Elizalde, Director


FROM:
                  P'vision of Acquisition and Cooperative Support WACS)
                             .h
                     -cG.QZdcd
                  Deborah H. Cureton
                  Associate Inspector General for Audit

SUBJECT: NSF OIG Audit Report No. OIG-06- 1-014, Audit of Mayatech Corporation's
         Incurred Costs for Fiscal Years 1999 through 2003

In response to NSF's request for audit support, we contracted with the Defense Contract Audit
Agency (DCAA), Herndon Branch Office, to perform an incurred cost audit of Mayatech
Corporation's (Mayatech's) cost-plus-fixed-fee Contract No.-ESI-9-9-1-1665 for the total claimed
amount of $7,083,076 for Fiscal Years (FYs) 1999 through 2003 (September 1, 1999 to August
31, 2003). The contractor provided technical support for the "Presidential Awards for
Excellence in Mathematics and Science Teaching" (PAEMST) for NSF's Division of
Elementary, Secondary and Informal Education ( E S ~ ) .

The objectives of the audit were to determine whether:

               Mayatech's accounting system was adequate for accumulating and billing costs for
               use.on government contracts; and

               Costs charged to the NSF contract were allowable, allocable and reasonable in
               accordance with contract terms and applicable government acquisition regulations.

The DCAA audit was performed in accordance with Generally Accepted Government Auditing
Standards. The DCAA audit report is included as an attachment to this memorandum.

DCAA found that Mayatech's accounting system was acceptable for accumulating and billing
costs under govenunent contracts, but questioned a total of $14,089 in claimed costs. 'This
amount is comprised of $12 000 of unallowable costs for alcoholic beverages provided to
PAEMST candidates a n m f associated general and administrative (G&A) costs. The
costs for alcoholic beverages were included in Mayatech's proposal and records in an account
entitled "Meeting Expenses."
                                                                  NSF OIG Audit Report No.OIG-06-1-001



Mayatech incurred costs for dinner cruises for four years (ITS2000 through 2003). The cruise
was one of the events held for PAEMST candidates during their week-long visit to Washington,
DC. Invoices supporting the costs of the cruises showed that "beer, wine, juice and soda" were
provided, and were billed at ten dollars per person for 500 people, including candidates and their
spouses.

 DCAA asked Mayatech to identify the amount of beverage costs for alcohol, and Mayatech
 stated that about 60% of the costs were for alcoholic beverages. DCAA accepted Mayatech's
 estimate as reasonable and accordingly, questioned $3,000' for each of the four years Mayatech
.incurred alcohol costs for the cruises.

Mayatech disagreed with the DCAA finding that the costs for alcoholic beverages were
unallowable for two reasons: 1) the costs were incurred solely for candidates of the PAEMST
award, and 2) Mayatech was directed by the NSF Contracting Officei-underthe contract terms to
incur these costs. Mayatech also stated that NSF had provided the contractor with
documentation which stated that it was legal to serve alcohol on the cruises.

In its response to Mayatech, DCAA agreed that the alcohol costs were incurred for candidates of
                                                                                          -- -- .
the PAEMST award, and noted that it does appear that Mayatech was instructed to incur these
costs, but stated that its au& opinion must &Tlow the Federal Acquisition Regulation (FAR).
&lZ Part 31.205-51 states that, "Costs of alcoholic beverages are unallowable." The contract
made no specific provision for the costs of alcoholic beverages. The DCAA report remained
unchanged.

NSF indicated that it was its intent to authorize and approve the costs for alcoholic beverages for
this contract as evidenced by discussions with NSF's Program and Contracting Officers; a
Mayatech budget which included costs for. alcoholic beverages; a Fgbruary 1995 (pre-contr&t)
legal opinion from NSF's Office of General Counsel (OGC) which refers to NSF's specific
statute (42 U.S. Code Annotated 1881b) and states that NSF is allowed -to use i t . regular
appropriations for entertainment, including alcohol; and a June 2006 legal opinion fiom NSF's
OGC which concludes that the costs for alcohol for PAEMST candidates is an allowable cost in
accordance with NSF's statute..

However, this intent toallow the costs for alcoholic beverages was not confirmed in the contract
between Mayatech and NSF, The contract Statement of Work provided for "suitable
transportation, meals, receptions, awards ceremony, and educational tours for awardees and
guests -during recognition events;" but the contract failed to state that NSF is allowed by its
statute and intended this contract with Mayatech to h n d entertainment, including alcohol.
Whenever it is NSF's intent to have alcoholic beverages paid for by NSF funds, the contract or
advance agreement with the contractor shp.uld cite the statutory authority under which costs for
alcoholic beverages will be considered allowable, a d also identify a .reasonable ceiling amount
for alcohol costs.

' The calculation is $10 per person times 500 people times 60 percent equals $3,000.
                                                        NSF OIG Audit Report No. OIG06-1-001


The findings in the DCAA audit report should not be closed until NSF verifies that our
recommendations have been adequately addressed and proposed corrective actions have been
satisfactorily implemented.

We discussed our conclusions with the NSF Contracting Officer prior to issuance of this report.


Recommendations

We recommend that the NSF Director of the Division of Acquisition and Cooperative Support:

       1. Resolve the questioned costs in the DCAA audit report;
       2. For current and fbture PAEMST program contracts, where NSF considers it
          appropriate to allow alcoholic beverages as a direct cost of an NSF contract:
             a. Clarify in the contract or in an advance agreement with the contractor that
                alcoholic beverages will be considered an allowable cost under the contract up
                to a specified ceiling amount; and
             b. State the statutory authority under which costs for alcoholic beverages will be
                considered allowable.

We are providing a copy of this memorandum to the Office of Education and Human Resources
(EHR)/Division of ESIE. The responsibility for audit resolution rests with DACS. Accordingly,
we ask that no action be taken concerning the report's findings without first consulting DACS at
(703) 292-8242.


OIG Oversight of Audit

To fblfill our responsibilities under Government Auditing Standards, the Office of Inspector
General:

           Reviewed DCAA's approach and planning of the audit;
           Monitored the progress of the audit at key points;
           Coordinated periodic meetings with DCAA and OIG management to discuss audit
           progress, findings and recommendations;
           Reviewed the audit report prepared by DCAA to ensure compliance with Government
           Auditing Standards and Office of Management and Budget Circulars; and
           Coordinated issuance of the audit report.

DCAA is responsible for the attached auditor's report on Mayatech and the conclusions
expressed in the report. NSF-OIG does not express any opinion on Mayatech's proposal,
accounting system, or the conclusions presented in DCAA's audit report.
                                                       NSF OIG Audit Report No. OIG-06-1-001


We thank you and your staff for the assistance extended to us during the audit. If you have any
questions about this report, please contact Jannifer Jenkins at (703) 292-4996 or David Willems
at (703) 292-4979.


Attachment: DCAA Audit Report of Mayatech Corporation's Incurred Costs
            for Fiscal Years 1999 through 2003


cc:    Celestine Pea, Program Director, EHRIESE
             DEFENSE CONTRACT AUDIT AGENCY
           AUDIT REPORT NO. 06221-2005Ml7900007



PREPARED FOR: National Science Foundation
              A'MT\J: Mr. David Willems, Audit Manager
              420 1 Wilson Boulevard
              Arlington, VA 22230

PREPARED BY:      DCAA Silver Spring Branch Office
                  2025 1 Century Blvd, Suite 320
                  Germantown, MD 20874- 1162
                      Telephone No.      (301) 60 1-6130
                      FAX NO.            (301) 353-1518
                      E-mail Address     dcaa-fa0622 1@dcaa.mil

SUBJECT:          Audit of Cost Incurred under Contract No. ESI-9911665

REFERENCES:       Relevant Dates: See Page 20

CONTRACTOR:       MayaTech Corporation (Cage Code 03AT2)
                  1100 Wayne Avenue, Suite 900
                  Silver Spring, MD 209 10

REPORT RELEASE RESTRICTIONS: See Page 21


CONTENTS:         Subject of Audit
                  Scope of Audit
                  Results of Audit
                  Contractor Organization and Systems
                  DCAA Personnel and Report Authorization
                  Audit Report Distribution and Restrictions
                  Appendix
Audit Report No. 06221-2005M17900007

                                     SUBJECT OF AUDIT

        As requested by the National Science Foundation in an undated memorandum received
April 15,2005 and as discussed subsequently with your office, we examined MayaTech, Inc.
(MayaTech) costs incurred on cost plus fixed fee Contract No. ESI-9911665. The costs incurred
are for the period of September 1, 1999 to August 3 1,2003. We have also been requested to
comment on MayaTech9s accounting system.

       The proposal and related cost or pricing data are the responsibility of the contractor. Our
responsibility is to express an opinion on the proposal based on our examination.


                                       SCOPE OF AUDIT

       We conducted our examination in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the examination to obtain
reasonable assurance about whether the data and records examined are free of material
misstatement. An examination includes:

           evaluating the contractor's internal controls, assessing control risk, and
           determining the extent of audit testing needed based on the control risk assessment;
           examining, on a test basis, evidence supporting the amounts and disclosures in the
           data and records evaluated;
           assessing the accounting principles used and significant estimates made by the
           contractor;
           evaluating the overall data and records presentation; and
           determining the need for technical specialist assistance.

       We evaluated the proposed costs using the applicable requirements contained in the:

           Federal Acquisition Regulation (FAR); and
           National Science Foundation Regulation (NSFR).

         The contractor claims exemption under 48 CFR 9903.201-1 (b) (3) from the practices
required by the Cost Accounting Standards Board rules and regulations because it considers
itself a small business concern.

        Our examination included an evaluation to determine if the accounting system provides
for the following procedures:

           direct and indirect costs are appropriately identified, accumulated, and reported;
           unallowable costs are appropriately identified and segregated;
           indirect costs are allocated equitably and consistently to contracts and other cost
           objectives;
Audit Report No. 06221-2005M17900007


           direct and indirect labor costs are identified to intermediate or final cost objectives by
           the timekeeping system and charged to appropriate cost objectives by the labor
           distribution system;
           cost information for billings is based on currently posted accounting data; and
           contract billings are reviewed by management to assure compliance with contract
           terms and provisions, e.g., frequency of billings, special withholding provisions,
           contract unallowables, etc.

       Our examination was performed on December 7 and 8,2005.

        This assignment represents our first experience with MayaTech Corporation. Therefore,
we have no previous experience with examining MayaTech's accounting system and related
internal controls. The contractor is a small business concern with limited resources to be applied
to compliance procedures and testing. The scope of our examination reflects this assessment of
control risk and includes those tests of compliance with applicable laws and regulations that we
believe provide a reasonable basis for our opinion.


                                      RESULTS OF AUDIT

             In our opinion, the contractor's claimed costs are acceptable as adjusted by our
examination. We questioned $14,089 of costs proposed under Contract No. ESI-9911665. The
$14,089 of questioned costs include questioning $12,000 of direct meeting expenses inwhich
MayaTech incurred costs to provide alcohol to participants of NSF's Presidential Awards for
Excellence in Mathematics and Science Teaching (PAEMST) Program. We have also
questioned,,f              applicable G&A costs that were applied to the unallowable alcohol costs.
Claimed costs are under the ceiling. Our results of audit are presented in the Exhibit below.

        In our opinion, MayaTech's accounting system is acceptable for accumulating and billing
costs under government contracts. We have completed and attached a Standard Form 1408, Pre-




                                                   -
award Survey of Prospective Contractor Accounting System, as the Appendix to this report.

       Our examination of MayaTech's accounting system was limited to determining whether
MayaTech's accounting system is adequate for accumulating and billing costs under government
contracts. We did not perform a comprehensive examination of the contractor's overall
accounting'system and its related internal controls. Accordingly, we express no opinion on
MayaTech's system of internal controls taken as a whole.

        We discussed the results of our audit with
         in an exit conference held on February 28,2006. We provided a draft copy of our Note 7
for meeting expenses to the contractor's representative on March 9, 2006. MayaTech provided
its reaction to our exit conference on March 28,2006. Please refer to our Note 7 which outlines
MayaTech's response to our audit findings.
Audit Report No. 06221-2005M17900007



                                                                        EXHIBIT
                                  MayaTech Corporation
                                Contract No. ESI-9911665
                       Summary of Costs Incurred and Results of Audit
                                        All Years

Cost Element                       Claimed       Questioned
Direct Labor                      $ 700.079          $     -
Fringe Benefits
Overhead
Staff Travel
Subcontractors                    1,583,107                -
Participant Lodging               1,095,749                -
Honor / Flat Fee                      2,2 15               -
Meeting Expense                   1,452,924           12,000
Other Direct Expense                301,895                -
Subcontract Overhead
G&A
                 Subtotal
Fee
                    Total       I
Audit Report No. 06221-2005M17900007



                                                                       EXHIBIT
                                  MayaTech Corporation
                                Contract No. ESI-9911665
                       Summary of Costs Incurred andResults of Audit
                                    Fiscal Year 2003

Cost Element                       Claimed      Ouestioned
Direct Labor
Fringe Benefits
Overhead
Staff Travel
Subcontractors
Participant Lodging
Honor 1Flat Fee
Meeting Expense
Other Direct Expense                 60,340
Subcontract Overhead
G&A
               Subtotal
Fee
                  Total
Audit Report No. 06221-2005M17900007



                                                                        EXHIBIT
                                  MayaTech Corporation
                                Contract No. ESI-99 11665
                       Summary of Costs Incurred and Results of Audit
                                    Fiscal Year 2002

Cost Element                        Claimed      Questioned
Direct Labor
Fringe Benefits
Overhead
Staff Travel
Subcontractors
Participant Lodging
Honor / Flat Fee
Meeting Expense
Other Direct Expense
Subcontract Overhead
G&A
                 Subtotal
Fee
                    Total
Audit Report No. 06221-2005M17900007



                                                                        EXHIBIT
                                  MayaTech Corporation
                                Contract No. ESI-9911665
                       Summary of Costs Incurred and Results of Audit
                                    Fiscal Year 2001

Cost Element                       Claimed       Ouestioned
Direct Labor                      $ 197,761           $    -
Fringe Benefits
Overhead
Staff Travel
Subcontractors
Participant Lodging
Honor 1 Flat Fee
Meeting Expense
Other Direct Expense
Subcontract Overhead
G&A
                 Subtotal
Fee
                    Total       m
Audit Report No. 06221-2005M17900007



                                                                        EXHIBIT
                                  MayaTech Corporation
                                Contract No. ESI-9911665
                       Summary of Costs Incurred and Results of Audit
                                    Fiscal Year 2000

Cost Element                        Claimed      Ouestioned
Direct Labor
Fringe Benefits
Overhead
Staff Travel
Subcontractors
Participant Lodging                 197,722                -
Honor / Flat Fee                        886
Meeting Expense                     284,065            3,000
Other Direct Expense                106,521                -
Subcontract Overhead
G&A
                 Subtotal
Fee
                    Total
Audit Report No. 06221-2005M17900007



                                                                                    EXHIBIT
                                   MayaTech Corporation
                                 Contract No. ESI-9911665
                        Summary of Costs Incurred and Results of Audit
                                     Fiscal Year 1999

Cost Element                          Claimed        Questioned
Direct Labor
Fringe Benefits
Overhead
Staff Travel
Subcontractors
Participant Lodging
Honor / Flat Fee
Meeting Expense
Other Direct Expense
Subcontract Overhead
G&A
                  Subtotal
Fee
                    Total

Explanatory Notes:

1.     Direct Labor

       a. Summary of Conclusions:

       We take no exception with MayaTech's direct labor costs.

       b. Basis of Contractor's Costs:

       The contractor's costs are based on the direct labor costs incurred on Contract No. ESI-
991 1665 from September of 1999 to August of 2003.

       c. Audit Evaluation:

        We reconciled the contractor's direct labor costs incurred to MayaTech's trial balance
and job cost ledgers. We then judgmentally selected months in which MayaTech incurred a
relatively high amount of direct labor costs and traced the incurred costs to MayaTech's labor
distribution report. The labor distribution report for Contract No. ESI-9911665 showed all
Audit Report No. 06221-2005M17900007
                            ,


employees who charged this contract, the amount of hours charged by each employee, and the
hourly rate charged for each employee. From the labor distribution we judgmentally selected
employees and obtained their timecards in order to verify that the hours accumulated on
MayaTech's labor distribution report reconciled to the employees' timecards. We also obtained
payroll data to verify that the hourly rate being charged to this final cost objective was the same
hourly rate being paid to the employees.

        During our testing of MayaTech's labor costs we verified that internal controls were in
place to ensure the MayaTech's labor costs were accurate. We were able to determine that
MayaTech's labor system is designed so that employees' timecards were to be signed at the end
of the pay period, then submitted to their supervisor for review and signature, and finally
reviewed by accounting personnel during the processing of labor. As indicated in our completed
SF 1408, we feel that MayaTech's labor system is acceptable.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.

2.     Fringe Benefits. Overhead, and Subcontractor Overhead

       a. Summary of Conclusions:

       We take no exception with MayaTech's fringe benefits, overhead, and subcontractor
overhead costs.

       b. Basis of Contractor's Costs:

       MayaTech's costs are based on its final indirect rates for FYs 1999, 2000,2001,2002
and 2003. MayaTech had final rates for each FY that were determined by the Department of
Health & Human Services (HHS).



       We obtained documents which showed the final determine rates for each fiscal year
between MayaTech and HHS. We then verified that MayaTech has correctly applied all its final
determined indirect rates to its costs incurred each fiscal year of this contract.

         MayaTech's fringe benefit rate is applied to its direct labor costs incurred. The overhead
rate is applied to direct labor plus applicable fringe. Subcontract overhead rate is only applied to
MayaTech's costs incurred by subcontractors.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.
Audit Report No. 06221-2005M17900007

3.     Staff Travel

       a. Summary of Conclusions:

       We take no exception with MayaTech's incurred costs for staff travel.

       b. Basis of Contractor's Costs:

        MayaTech's staff travel costs are based on its costs incurred during the performance of
this contract.

       c. Audit Evaluation:

       We traced the costs incurred for staff travel to MayaTech's trial balance for each year in
which costs were incurred. We also obtained MayaTech's job cost ledger for this contract and
reconciled the costs that were incurred.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.

4.     Subcontractors

       a. Summary of Conclusions:

       We take no exception with MayaTech's incurred costs for subcontractors.

       b. Basis of Contractor's Costs:

         MayaTech's subcontractor costs are based on its costs incurred during the performance
of this contract. Specifically, MayaTech engaged the effort of three main subcontractors: the
Association of State Supervisors of Mathematics, Council of State Science Supervisors, and
Matthews Media Group.

       c. Audit Evaluation:

       We coordinated with NSF personnel to determine if any assist audits should be requested
for MayaTech's subcontractors. Matthews Media Group was MayaTech's largest subcontractor,
incurring approximately $729,000 during the entire performance of this contract. Discussions
were held with NSF personnel regarding obtaining an assist audit for Matthews, but it was
determined that assist audits would not requested.

        We traced the subcontractor costs to MayaTech's trial balance and job cost ledger. We
also judgmentally selected certain months in which MayaTech incurred a relatively significant
Audit Report No. 06221-2005M17900007

amount of subcontractor costs and obtained MayaTech's job cost detail for these months. This
analysis allowed us to see all transactions booked to this account.

       Since assist audits were not being performed for MayaTech's subcontract costs, we
corresponded with MayaTech in order to determine the type of services being performed by
Matthews Media Group. MayaTech informed us that Matthews performed the following
services:

       "Matthews Media was subcontracted to develop and implement a comprehensive
       communications plan for the PAEMST Program. Specific areas of responsibility
       includes message development, preparation of bio-book (sketches of each awardee
       "class"), preparation of press releases, media outreach, preparation of media materials
       and information kits, tracking media and outreach activities, and reporting. "

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.

5.     Participant L o d ~ i n g

       a. Summary of Conclusions:

       We take no exception with MayaTech's incurred costs for participant lodging.

       b. Basis of Contractor's Costs:

       MayaTech's participant lodging costs are based on the costs incurred during the
performance on this contract. A majority of the lodging costs were incurred for candidates of the
PAEMST. Candidates would come from all over the United States to Washington, DC for a
week long conference which was held each year for the PAEMST Program. MayaTech
accumulated the lodging costs for these candidates in this account.

       c. Audit Evaluation:

        To verify MayaTech's participant lodging costs, we obtained a listing of the costs
incurred each year. We reconciled the total amount incurred each year to MayaTech' s trial
balance and also the job cost ledger for this contract. We then obtained a breakdown of
MayaTech's billed costs by cost element for each month during the performance of this contract.
From this breakdown we judgmentally selected months in which MayaTech incurred a relatively
significant amount of participant lodging costs and obtained MayaTechYsjob cost detail for this
month. The job cost detail showed all transactions booked to this account during that month.

       From the job cost detail we judgmentally selected high dollar transaction and obtained
source documents to verify the costs were allowable and allocable to this contract. We obtained
Audit Report No. 06221-2005M17900007

invoices and cancelled checks to verify the participant lodging costs we selected. The costs that
we verified were hotel charges for the participants staying in Washington, DC.

        During our transaction testing of participant lodging costs we determined that MayaTech
has internal controls in place in regards to participant lodging expenses. When MayaTech would
bill costs to NSF the invoice would be prepared from an employee in the Accounting
Department. The invoice would then be reviewed and signed by an employee in the Contracts
Department and also the program manager. Finally the President and CFO of MayaTech would
sign the invoice. Having various employees review the invoices submitted to NSF is a good
internal control to prevent unallowable costs from being billed to the Government.

        MayaTech informed us that NSF was involved in the arranging of hotel costs for the
participants staying in Washington, DC. NSF would help MayaTech in the selection process of
choosing a hotel company.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.

6.     Honor / Flat Fee

       a. Summary of Conclusions:

       We take no exception with MayaTech's incurred costs for honor / flat fee.

       b. Basis of Contractor's Costs:

        MayaTech's costs are based on the costs incurred during the performance of this
contract.

       c. Audit Evaluation:

       We traced the costs incurred for honor / flat fee to MayaTech's trial balance for each year
in which costs were incurred. We also obtained MayaTech's job cost ledger for this contract and
reconciled the costs that were incurred.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.
Audit Report No. 06221-2005M17900007

7.     Meeting Expenses

       a. Summary of Conclusions:

        We are taking exception to a portion of the contractor's proposed meeting expenses. Our
results are based on questioning alcohol costs that were incurred during dinner cruises for
participants of NSF's Presidential Awards for Excellence in Mathematics and Science Teaching
(PAEMST) Program. The alcohol costs were not incurred by MayaTech's employees.

       b. Basis of Contractor's Costs:

        The contractor's costs are based on its costs incurred from FY 1999 - 2003. A majority
of the meeting expense costs were incurred for various dinners and events for candidates of the
PAEMST Program. Typically, the costs are not incurred by MayaTech employees.

       c. Audit Evaluation:

       We obtained a listing of MayaTech's costs billed each year by cost element. We traced
the meeting expenses billed to MayaTech's trial balance for each year. We also traced the
meeting expenses billed each year to MayaTech's respective job cost ledger for this contract.

        We then obtained a listing of MayaTech's monthly invoices that were billed to NSF for
this contract. We judgmentally selected high dollar invoices and obtained MayaTech's job cost
detail for that specific month. This selection allowed us to see all transactions booked to the
meeting expense account for that month. From the job cost detail we judgmentally selected high
dollar transactions and obtained source documents to verify that the costs were allowable and
allocable to this contract.

        During our transaction testing we determined that MayaTech was incurring costs each
year (FYs 2000 - 2003) for a dinner cruise. This dinner cruise was not for employees of
MayaTech, rather, the cruise was for the candidates of PAEMST. The cruise was one of the
events held for these candidates during their week-long visit to Washington, DC. The invoices
we obtained supporting the costs for the cruise indicated that beverages such as "beer, wine,
juice, and soda" were available to the candidates during this cruise. All costs for alcohol are
unallowable per FAR 3 1.205-51. Specifically, the invoices indicated the beverages were billed
at ten dollars a person and 500 candidates were on the cruise. We spoke with MayaTech's
representatives in order to determine the amount of beverage costs associated with the
unallowable alcohol. MayaTech informed us that approximately 60% of the beverage cost was
for the unallowable alcohol. Therefore, we have questioned $3,000 for each year that MayaTech
incurred these costs.

       MayaTech informed us that all events were closely coordinated with NSF personnel. We
spoke with personnel at NSF who were aware that alcohol was provided on this dinner cruise.
NSF even provided our office with documents from its lawyers saying that it was acceptable to
have alcohol served on this cruise.
Audit Report No. 06221-2005M17900007

       For the purposes of our audit we must follow the guidelines outlined in the Federal
Acquisition Regulation (FAR). FAR 3 1.205-51 specifically states that the costs of all alcoholic
beverages are unallowable. Therefore, in order for our report to be in accordance with the FAR,
we are treating the alcohol costs as unallowable.

       Again, this cruise was      an .event for the employees of MayaTech. This was an event
for candidates of PAEMST.

       d. Contractor's Reaction:

       MayaTech's representatives provided the following response:

        "Please, also, bear in mind that these dinner expenses were incurred to cover Presidential
award programs under the referenced contract. The MayaTech Corporation, as a contractor, was
duly directed under the terms of the contract by the NFS Contracting Officer to incur these
expenses. Moreover, as you rightly indicated, none of MayaTech's personnel benefited from
these expenses. It will therefore be unjustified to disallow these costs under the,conditions
explained and consequently disagree with your opinion".

       e. Auditor's Response:

       We have been able to determine that MayaTech did incur these costs for candidates of the
PAEMST award. Also, based on discussions with NSF and documents we obtained from NSF, it
does appear that MayaTech was instructed to incur these costs. However, our audit opinion must
follow the guidelines outline in the FAR. FAR 3 1.205-51 clearly states that "costs of alcoholic
beverages are unallowableyy.

8.     Other Direct Expenses

       a. Summary of Conclusions:

       We take no exception with MayaTech's incurred costs for other direct expenses.

       b. Basis of Contractor's Costs:

        MayaTech's costs are based on the costs incurred during the performance of this
contract.

       c. Audit Evaluation:

       We obtained a listing of the total amount of other direct expenses incurred by MayaTech
during each year of its contract. We reconciled the total amount incurred each year to
MayaTech's trial balance and also the job cost ledgers. We then obtained a breakdown of
MayaTech's billed other direct expenses for each month during the performance of this contract.
From this breakdown we judgmentally selected months in which MayaTech incurred a relatively
Audit Report No. 06221-2005M17900007

significant amount of other direct expenses and obtained MayaTech's job cost detail for the
appropriate month. The job cost detail showed all transactions booked to this account during
that month.

        From the job cost detail we judgmentally selected high dollar transactions and obtained
source documents to verify the costs were allowable and allocable to this contract. We obtained
invoices and cancelled checks to verify the participant lodging costs we selected. In order to
verify that the costs were allocable to this contract, we reviewed the scope of work outlined in
the contract. This analysis allowed us to verify that MayaTech was incurring costs for services
outlined in the scope of work.

        d. Contractor's Reaction:

        The contractor's representative agreed with our results.



        a. Summary of Conclusions:

       We take exception to a portion of MayaTech's incurred G&A expenses. We have
questioned the G&A costs that were applied to the unallowable alcohol costs that are discussed
in Note 7 of our report.

        Our application of MayaTech's G&A rate to our audit determined base costs for each
year of this contract is shown below:

                       Rates                     Bases                                 Questioned
                         Per                                                  Due to     Due to
              Proposed  DCAA    Quest.    Proposed       Quest.      Total     Rate       Base    Total
Description      (1)      (2)    (3)         (4)          (5)      Proposed
                                  -
                                (1 2)
FY 2000 G M                      0.0%

                       Rates                     Bases                                 Questioned
                         Per                                                  Due to     Due to
              Proposed  DCAA    Quest.    Proposed       Quest.      Total     Rate      Base     Total
Description      (1)      (2)    (3)         (4)          (5)      Proposed    (6)         (7)     (8)




                       Rates                     Bases                                 Questioned
                         Per                                                  Due to     Due to
              Proposed  DCAA    Quest.    Proposed       Quest.      Total     Rate       Base    Total
Description      (1)      (2)    (3)         (4)          (5)      Proposed     (6)        (7)     (8)
Audit Report No. 06221-2005M17900007



                       Rates                       Bases                                    Questioned
                          Per                                                     Due to      Due to
              Proposed  DCAA      Quest.    Proposed       Quest.      Total       Rate       Base     Total
Description      (1)      (2)      (3)         (4)          (5)      Proposed       (6)        (7)      (8)
                                     -
                                  (1 2)                                           (3)f(4)     (2)*(5)   (6)+(7)
F'f2003 .&A                        0.0%                      3,000


         b. Basis of Contractor's Costs:

       MayaTech' s G&A costs are based on applying its final G&A for FYs 1999,2000,2001,
2002 and 2003 to its total costs incurred on the contract except for subcontractor costs,
subcontractor overhead costs, and G&A costs. MayaTech had final rates for each FY that were
determined by the Department of Health & Human Services (HHS).

         c. Audit Evaluation:

         We obtained documents which verified the final determined G&A rates for each fiscal
year between MayaTech and HHS. We then verified that MayaTech has correctly applied its
final determined G&A rate to its costs incurred each fiscal year of this contract. We also verified
that its G&A was not applied to subcontractor costs, subcontractor overhead costs, and G&A
costs.

        As discussed in Note 7 of our report, we have questioned $3,000 of unallowable alcohol
expenses that were incurred each year in FYs 2000,2001,2002, and 2003. Therefore, all G&A
costs applied to this unallowable alcohol are also unallowable:

         d. Contractor's Reaction:

         Please refer to Note 7 which outlines the contractor's response to our questioned alcohol
costs.

         e. Auditor's Response:

         Please refer to Note 7 which outlines the auditor's response to contractor's reaction.

10.      Accounting System and Internal Controls

         a. Summary of Conclusions:

      We consider MayaTechYsaccounting system and selected internal controls to be
adequate.

         b. Basis of Contractor's Cost:
Audit Report No. 06221-2005M17900007

      MayaTech uses Deltek for its accounting system. Also, MayaTech uses Deltek Time and
Expense system for the employees' timecard system.

       c. Audit Evaluation:

        We performed audit steps to verify that MayaTech's accounting system is acceptable for
use on government contracts based on the conditions outlined in the SF 1408 which is attached
as the Appendix to this report. Specifically, we verified that MayaTech uses the accrual basis of
accounting. We verified that accrual accounts exist which MayaTech properly uses.

       In order to verify that controls exists to prevent direct costs from being charged direct
and vice versa, we reviewed MayaTech's policies and procedures relating to its accounting
system. We determined that MayaTech has established policies and procedures for describing
when a cost should be charged direct. We then verified that MayaTech's accounting system has
assigned specific charge numbers for direct costs and specific charge numbers for indirect costs.

        In order to verify that MayaTech properly maintains a job cost ledger in its accounting
system we obtained MayaTech's job cost ledger for each year of Contract No. ESI-9911665.
MayaTech's accounting system assigns a unique four digit code for each of its contracts.
MayaTech can then label this four digit code on all direct costs to ensure direct costs are charged
to the appropriate cost objective. From MayaTech's job cost ledger for this contract we obtained
supporting documentation which allowed us to determine the nature of the expenses being
charged to Contract No. ESI-9911665. Based on the supporting documentation we obtained we
were able to verify that the costs being accumulated in MayaTech's job cost ledger for this
contract were allocable to the contract as a direct cost. We also wanted to verify that
MayaTech's job cost ledgers are reconciled to the general ledger. We obtained MayaTech's trial
balance for each fiscal year and were successfully able to reconcile the cost elements shown on
the job cost ledger to the trial balance.

        We obtained a written description of MayaTech's accounting system which included a
description of the indirect rates used by MayaTech. The description described all the indirect
rates used by MayaTech and the bases used to allocate the pool expenses. The written
description would define each indirect expense and also describe the type of costs which should
be included in each indirect rate. This description allows accounting personal to label the
appropriate code on all indirect expenses. This description is a good internal control because the
written descriptions make each accounting employee aware of where each cost should be
assigned and charged. Therefore, throughout the entire accounting cycle if a cost is being
assigned to the incorrect pool, a member of the Accounting Department should be able to
identify and correct the error.

        In order to verify that MayaTech properly handles labor costs we performed audit tests of
MayaTech's labor system. We selected costs listed on MayaTech's job cost ledger for Contract
No. ESI-9911665 and traced these costs through MayaTech's accounting system. We traced
these costs to labor distribution reports and also to employees' timecards. Also, we obtained
payroll data and cancelled checks to verify that the labor costs being charged to the contract are
Audit Report No. 06221-2005M17900007

the same as the labor expenses being paid to employees. Another step we performed was to
verifl that some good internal controls exist within the labor system. We verified that all
timecards are signed by the employee at the end of the pay period and then provided to the
employee's supervisor for review and signature. Also, a project manager is assigned to each
contract who reviews the monthly labor costs being charged to the respective contract. These are
some of the internal controls within MayaTech labor system which help ensure labor costs are
accurate.

        MayaTech's written description of its accounting system also describes how to treat
unallowable costs. MayaTech's accounting system has a set of codes labeled as 0900-000
through 0999-999 which are established to accumulate unallowable costs. Costs accumulated in
these accounts are not included in MayaTech's indirect rates and do not get allocated to
MayaTech's contracts. The written description of MayaTech's accounting system describes
which costs are unallowable and should be accumulated in the unallowable accounts. We feel
that based on these procedures MayaTech's accounting system properly handles unallowable
expenses. In Note 7 of this report we explained that we are questioning alcohol costs because
these expenses are unallowable per FAR 3 1.205-51. Even though MayaTech charged these
expenses direct to Contract No. ESI-9911665 we still feel MayaTech's accounting system and its
related internal controls are capable of removing these unallowable expenses. MayaTech knows
alcohol is an unallowable expense per FAR 3 1.205-51; however, it chose to treat the expenses as
a direct cost based on the instruction of NSF.

        We determined that MayaTech has good internal controls in regards to the submission of
public vouchers on its contracts. All public vouchers submitted to the Government are reviewed
and signed off on by the Chief Financial Officer, Program Manager of the contract, and an
employee from the Contracts Department. Finally, once the voucher is completed and ready to
be submitted, MayaTech's President will review and sign the front of the voucher. We feel these
internal controls help to ensure only allowable costs are included in MayaTech's billings to
government agencies.

       d. Contractor's Reaction:

       The contractor's representative agreed with our results.
1.     Organization



                         -
Audit Report No. 06221-2005M17900007

                    CONTRACTOR ORGANIZATION AND SYSTEMS



       MayaTech, Inc. was incorporated under the laws of the State of Maryland. The
contractor has approximately
2004 were approximately
                                             Sales for Fiscal Year (FY) ending December 3 1,
                                       Of this amount approximately $750,000 was to the
Federal Government. Most of MayaTech's government sales are to the National Institute of
Health, Center for Disease Control, Agency for Internal Development, and Department of
Education.

2.     Accounting/Billing Systems

        As stated in the results of this audit, MayaTech's accounting system is adequate for the
accumulation of costs on government contracts. MayaTech's accounting period is from January
1 to December 3 1. MayaTech maintains an accounting system on the accrual basis in
accordance with generally accepted accounting principles. MayaTech's accounting system is
posted on a current basis. Appropriate adjusting entries are made at the end of each month and
at year end. MayaTech prepares financial statements on an annual basis. The annual financial
statements are audited by external CPAs. Its current accounting system consists of using Deltek
accounting software.

       MayaTech's pools and allocation bases follow:




3.     Estimating System

       We have not performed a formal examination of MayaTech's estimating system.

4.     Cost Accounting Standards

       MayaTech claims exemption under 48 CFR 9903.201-1(b)(3) from the~practicesrequired
by the Cost Accounting Standards Board rules and regulations because it considers itself a small
business concern.
Audit Report No. 06221-2005M17900007

                                      D C M PERSONNEL

                                                            Telephone No.
Primary contacts regarding this audit:




Other contacts regarding this audit report:




General information on audit matters is available at http://www.dcaa.mil.


                                      RELEVANT DATES

Request for audit: received on April 15, 2005.

AUDIT REPORT AUTHORIZED BY:




                                                           Manager
                                                           DCAA Silver Spring Branch Office
    Audit Report No. 06221-2005M17900007

                     AUDIT REPORT DISTRIBUTION AND RESTRICTIONS

    DISTRIBUTION
                                                                       E-mail Address
    National Science Foundation                                        dwillems@nsf.gov
    ATTN: Mr. David Willems, Audit Manager
    420 1 Wilson Boulevard
    Arlington, VA 22230

    National Science Foundation




                                       --
    ATTN: Ms. Sherrye McGregor
    4201 Wilson Boulevard
    Arlington, VA 22230

    MayaTech Corporation                                               (Copy furnished thru NSF)
    1100 Wayne Avenue, Suite 900
    Silver Spring, MD 20910

    DCAA Sr. Financial Liaison Advisor
    ATTN: OAL - Sr. Non-DOD FLA
    8725 John J. Kingman Road, Suite 2135
    Fort Belvoir, VA 2206062 19

    RESTRICTIONS

    1. Information contained in this audit report may be proprietary. It is not practical to identify
       during the conduct of the audit those elements of the data which are proprietary. Make
       proprietary determinations in the event of an external request for access. Consider the
'

       restrictions of 18 U.S.C. 1905 before releasing this information to the public.

    2. Under the provisions of Title 32, Code of Federal Regulations, Part 290.7(b), DCAA will
       refer any Freedom of Information Act requests for audit reports received to the cognizant
       contracting agency for determination as to releasability and a direct response to the requester.

    3. Do not use the information contained in this audit report for purposes other than action on the
       subject of this audit without first discussing its applicability w.ith the auditor.
Audit Report No. 06221-2005M17900007                                                                      APPENDIX
                                                                                                          Page 1 of 2



      -WARD      SURVEY OF PROSPECTIVE C%MRRACTOR                                                        bptcw:- 16131197
                                                                                                                    .

                   ACCOWTINO SYSY'EM
                                                                  - --,- - - -.- - -- ---
 ,-
  Public rwbffing bvrdan for this coMt3n d hfmatbnb sstlmated to U K Q p24 hpar rWpmob IncWin the Urn) lu
  rsubwhg. h m u c b a ~ w~lthlng
                         ,         axlsfq d m source% getwen@snd maint&mm(l!he dols nasd.d,  d    cm&tf&~ nd rsvkwsn(l dta
  cori#$n of infvrnutbn. W commsnts regardhe rhk buds? vatmia my blhY npoc1t           d
  W r r l g cuggwthts far n#krch rW6 ci,rden. to FAR Ssctrrvrn4VRSI. afka of Msrrl WrHm c#d
                                                                                            9 C01hkm Of dmwhh
                                                                                                            i      W y , GSR,
  ~ ~ ~ f p oC 20405:          &
                   n . dt. oftte4 of Minw-t              nd Budpa R-k        R.ductron b $ w t, 9 d x l i % M g t o n .    DC




                                         FOR OFFICIAL USE ONLY
Audit Report No. 06221-2005M17900007
                                                                                                                                      APPENDIX
                                                                                                                                      Page 2 of 2


                                                                           -
                                                           SECTION U EVALUATION CHECKLIST
                                                                                                                                  I       I            IIWT
    MARK 'X4 IN THE APPROPRIATE COLUMN                  /Exnldin M Y deflcMncies in ~&f/oN
                                                                                         I NARRATIVE)                             I YES 1         NO   [@f@$-


    2. ACCOUNTING SYSTEM PROVIPES FOR-
   -------                                                -
             a. Proper segregation of direct cost$ from indirect costs.
                                       .-                                 --                    --
             b. Identification and accumulation of dkect costs by contract.                                                           x
                                         -                         .--.-
             c. A l o ~ l c eand
                              l consistent method for the allocstion of indirect costs to intermediate and final cart                 X
                                            -
                objectives. (A contract is... s final cost objeetlve.)
                                                                                                                                      x
  -..-
             d. Accumulation of costs under general ledger c m t r d .
                                                                                 -
                                                                                                                                      x
             s. A tlmskeepin~system that identifies employers' labor by intermediate or flnal cost objectives.
                                                                   --                                                                                          -
             f. A labor dlstributkn syaern that charges direct md indirect labor to.Ihe appropriate cast objectives.                  x
                                -                                                                                                                          -
             g. Interim (at least monthly1 determination of costs chargad to o contract through routine posting of books
                of account.                                                                                                           x
             h. Exclusion from costs charged to uovernment contracts ol amounts which are not sllowsble in terms of
                FAR 31. Contract Cost Princidas and Procadures, or other contract ~ovisions.                                      Ixl                  I
             i. Identification of costs by contract line item and by units las if each unit or line item were a separate
                                              ---
                contract) if required by the proposed contracr.

             i. Segregation of preproduction costs from production costs.
   3. ACCOUNTING SYSTEM PROVIDES FINANCIAL INFORMATION:                             -
                                                                                 --.. -.... .
             a. Required by contract clauses concerning limitation of cost IFAR 52.232-2
                -
                Davments
                  ,-  -   [FAR
                          . . 52.21 6-1
                                      - ~61.- ,
                                                                 -.                                                     --        I       I            I
             b. Required to support requests for progress payments.                                                               1x1                          .   .
   4. IS THE ACCOUNTING SYSTEM DESIGNED, AND ARE THE RECORDS MAINTAINED IN SUCH A MANNER                                                      '
             THAT ADEQUATE. RELIABLE DATA ARE DEVELOPED FOR USE IN PRICING FOLLOW-ON ACQUISITIONS?
  5. IS THE ACCOUNTING SYSTEM CURRENTLY IN FULL OPERATION?
     ( I f not. describa in Section INarrative w h i d ~portions are
     ( 1 1 in operation. (2)set up. but not yet in operation,
     (31 anticipated, or 141 n0nexistenl.l
                                                                                                                                      x




                                                                                                                        SF 1408   (REV. 8.881 (EGIBACK




                                                  FOR OFFICIAL USE'ONLY
